           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   AN INDIVIDUAL REPRESENTATIVE
   PAYEE FOR THE SOCIAL SECURITY
       ADMINISTRATION IN THE
       SAN FRANCISCO REGION

    July 2007    A-09-07-17063




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   July 3, 2007                                                                    Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Inspector General

Subject: AnIndividual Representative Payee for the Social Security Administration in the
        San Francisco Region (A-09-07-17063)


        OBJECTIVE

        Our objectives were to determine whether the representative payee (1) had effective
        safeguards over the receipt and disbursement of Social Security benefits and
        (2) ensured Social Security benefits were used and accounted for in accordance
        with the Social Security Administration’s (SSA) policies and procedures.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because
        of their youth or mental and/or physical impairments. Congress granted SSA the
        authority to appoint representative payees to receive and manage these beneficiaries’ 1
        payments. 2 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
        beneficiaries or Supplemental Security Income (SSI) recipients when representative
        payments would serve the individuals’ interests. Representative payees are
        responsible for managing benefits 3 in the best interest of the beneficiary. Refer
        to Appendix B for additional representative payee responsibilities.




        1
          We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
        2
            Social Security Act (Act) §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
        3
            We use the term “benefits” generically in this report to refer to both OASDI benefits and SSI payments.
Page 2 – Peter D. Spencer

Since 1981, the representative payee has provided services to SSA beneficiaries who
receive payments under the OASDI and SSI programs. In 1993, the representative
payee we reviewed established the Conservatorship and Resources for the Elderly,
Inc., which provides conservatorship, guardianship, trust management, probate
administration, and fiduciary services to incapacitated individuals. From July 1, 2005 to
June 30, 2006, the representative payee received $482,485 in Social Security benefits
for 56 beneficiaries.

RESULTS OF REVIEW
Generally, the representative payee (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used in accordance with SSA’s policies and procedures. Except for the items noted
below, the representative payee maintained sufficient records of benefit receipts,
disbursements, and conserved fund balances for the 56 beneficiaries in her care.
Specifically, we found the representative payee

•   did not complete a Representative Payee Application for 3 beneficiaries;

•   did not maintain adequate documentation to fully support 1 or more expenditures
    for 16 beneficiaries;

•
                                       4
    did not report special needs trusts (SNT) and/or life insurance funded burial
    contracts 5 (LIFBC) to SSA for 8 beneficiaries;

•   incorrectly reported the conserved fund balances on the Representative Payee
    Reports (RPR) for 5 beneficiaries;

•   did not return conserved funds to SSA for 2 beneficiaries who were no longer in
    its care;

•   did not maintain accounting records for 1 beneficiary; and

•   charged telephone calls and/or case management fees for 14 beneficiaries.




4
  An SNT is a trust established under Section 1917(d)(4)(A) of the Act that (1) contains the assets of
an disabled individual under age 65; (2) is established for the benefit of such individual by a parent,
grandparent, legal guardian, or court on or after January 1, 2000; and (3) provides for the State to
receive all amounts remaining in the trust upon the death of the individual up to an amount equal to
the total medical assistance paid on behalf of the individual under a State Medicaid plan.
5
  An LIFBC involves an individual purchasing a life insurance policy on his or her life and then assigning,
revocably or irrevocably, either the proceeds or ownership of the policy to a third party (generally a funeral
provider) to fund a burial contract.
Page 3 – Peter D. Spencer

COMPLETION OF REPRESENTATIVE PAYEE APPLICATIONS

The representative payee did not complete a Representative Payee Application for
three beneficiaries in its care. The representative payee assumed responsibility for
the care of these beneficiaries after their previous representative payee died. SSA
was unaware that two of the three beneficiaries were in the representative payee’s
care. From July 1, 2005 to June 30, 2006, these beneficiaries received $30,462 in
Social Security benefits. However, neither the representative payee nor SSA could
locate a Representative Payee Application for these beneficiaries. As a result, SSA
was unaware of the actual number of beneficiaries and amount of Social Security
benefits the representative payee had managed.

SSA’s procedures require that a representative payee complete an application to
receive benefits on a beneficiary’s behalf. SSA uses the information on the application
to evaluate the applicant's qualifications and suitability to serve as a representative
       6
payee.

The representative payee had acted as conservator for these beneficiaries because
the previous representative payee was terminally ill and died in October 2003.
However, according to SSA’s Representative Payee System (RPS), two beneficiaries
were still in the previous representative payee’s care. The remaining beneficiary had
not been entered into RPS. The representative payee stated that a Representative
Payee Application was not completed after the previous representative payee’s
death. Without such information, SSA is unable to make an informed decision
about the representative payee’s qualifications and suitability. During our audit, the
representative payee initiated action to submit Representative Payee Applications
for these beneficiaries.

SUPPORTING DOCUMENTATION FOR EXPENDITURES

The representative payee did not maintain adequate documentation to fully support
1 or more expenditures for 16 beneficiaries. In some instances, the supporting
documentation was not obtained or retained. The representative payee believed
that such information may have been misfiled. In other instances, the supporting
documentation was altered and did not always reconcile to the check amount. As a
result, we were unable to determine the reasonableness of 54 checks for $34,033 in
expenditures.

SSA's procedures state that representative payees are responsible for keeping detailed
and accurate records of how benefits are used. 7 SSA’s procedures also require that




6
    SSA, Program Operations Manual System (POMS) GN 00502.107.A.
7
    SSA, POMS GN 00502.113.D.1.
Page 4 – Peter D. Spencer

representative payees use the benefits they receive to meet the beneficiary’s needs
and best interests. Representative payees are responsible for keeping records and
reporting on the use of benefits. 8

For 16 beneficiaries, we identified 54 checks, totaling $34,033, without sufficient
documentation to fully support payments to vendors, employees, and family members
for such items as room and board, transportation, clothing, cigarettes, and hygiene
supplies. Of this amount, the representative payee issued 27 checks, totaling
$29,350, to a room and board facility it owned. The representative payee did not
maintain documentation of the rent amounts for the four beneficiaries who lived at the
facility. The facility manager (a member of the representative payee’s family) stated
that rent agreements were not prepared and monthly rates were based on what each
beneficiary could afford to pay.

The representative payee also issued four checks, totaling $1,145, to another family
member for property clean-up and transportation services. However, we found the
representative payee had adjusted the amount requested for payment on the “Manual
Check Request Form” without additional explanation or justification for the adjustment.
In these instances, the amount of the check was higher than the family member initially
requested.

SPECIAL NEEDS TRUSTS AND LIFE INSURANCE FUNDED BURIAL CONTRACTS

The representative payee did not report SNTs and/or LIFBCs to SSA for
eight recipients. The representative payee believed it was not necessary to notify SSA
about the establishment of SNTs and LIFBCs for its recipients because these items
were exempt from SSI resource limits. We found that SSA was unaware of two
recipients with SNTs, four recipients with LIFBCs, and two recipients with both SNTs
and LIFBCs. Without such information, SSA cannot determine whether these
recipients are still eligible for SSI payments.

SSA’s procedures state that recipients or their representative payees must promptly
report any changes that can affect SSI payments. 9 Property held in a trust may or
may not be considered a resource for SSI purposes based, in part, on the type of trust,
who established it, and when it was established. SSA must review the trust document
                                                                                      10
and determine the nature and value of trust property to evaluate its resource status.
An SNT that meets certain requirements may qualify as one of the exceptions to the
general rule of counting trusts as income and resources. 11


8
     SSA, POMS GN 00605.001.
9
     SSA, POMS SI 02301.005.
10
     SSA, POMS SI 01120.200.
11
     SSA, POMS SI 01120.203.
Page 5 – Peter D. Spencer

In addition, SSA must review the life insurance policy and determine whether its
proceeds or ownership have been assigned to evaluate its resource status. When
the assignment of proceeds or ownership of an LIFBC is revocable, the resource value
of the burial contract is equal to the cash surrender value of the life insurance policy,
subject to the $1,500 burial funds exclusion. If the assignment is irrevocable, the life
insurance policy and burial contract are not resources for SSI purposes because the
                                  12
recipient no longer owns them.

Based on our review, we believe the SNTs and/or LIFBCs for some recipients
may affect their SSI eligibility. In December 2006, we referred the SNTs to the
San Francisco Regional Office for appropriate action. In March 2007, we referred
the LIFBCs to the Redlands Field Office for review. Because of the complexity of
SNTs and LIFBCs, it is important that SSA review these items to determine whether
they should be counted as a resource for SSI purposes.

ACCURACY OF REPRESENTATIVE PAYEE REPORTS

The representative payee incorrectly reported the conserved fund balances on
the RPRs for five recipients. This occurred because the representative payee
used a formula to estimate the use of Social Security benefits on the RPRs for its
recipients. For eight recipients who received only SSI payments from July 1, 2005
to June 30, 2006, we compared the estimated use of benefits on their most recent
RPRs to the actual use of benefits per the accounting records. The representative
payee reported no conserved funds for these recipients. However, we determined
that five of these recipients had $3,349 in conserved funds.

SSA’s procedures state that a representative payee’s duties include keeping detailed
and accurate records of how benefits are used to provide an accurate report to SSA
                 13
when requested. The RPR assists SSA in determining the use of benefits during the
preceding 12-month reporting period, the representative payee’s continuing suitability,
and the beneficiary’s need for representative payment. 14

For each reporting period, the representative payee allocates 70 percent of Social
Security benefits paid toward food and housing and 30 percent toward clothing,
dental, medical, and recreation expenses. This formula eliminated any conserved
fund balances and was applied without regard to actual expenditures. For example,
the representative payee reportedly spent the entire $18,918 received on behalf of
an SSI recipient on the RPR for the period of September 1, 2005 to August 31, 2006.
However, the representative payee’s general ledger for the same period actually
reflected an increase of $1,396 in conserved funds.


12
     SSA, POMS SI 01130.425.
13
     SSA, POMS GN 00502.113.D.1.
14
     SSA, POMS GN 00605.001.B.
Page 6 – Peter D. Spencer

PAYMENT OF CONSERVED FUND BALANCES

Our audit disclosed that 10 of the 56 beneficiaries left the representative payee’s care
from July 1, 2005 to June 30, 2006. We found the representative payee did not return
conserved funds directly to SSA for two of these beneficiaries who were no longer in
its care. Instead, the representative payee forwarded the conserved funds to the new
representative payee. As a result, SSA was unaware that $2,387 in conserved funds
had been transferred to the new representative payee.

SSA’s procedures require that representative payees return any conserved funds
or unused benefits to SSA to reissue funds to either a successor payee or the
             15
beneficiary.

In one instance, the representative payee promptly forwarded the conserved
funds at the same time the beneficiary left its care. In the other instance, the
representative payee held the conserved funds for 8 months after the date of the
last SSI payment. However, in both instances, the conserved funds were forwarded
to the new representative payee. This occurred because the representative payee
was unaware of the requirement to return conserved funds directly to SSA.

LACK OF ACCOUNTING RECORDS

The representative payee did not maintain accounting records for one recipient.
This occurred because the representative payee believed the amount of payments
received by the recipient was insignificant. The recipient resided at a Medicaid facility
from July 1, 2005 to June 30, 2006. The representative payee forwarded the SSI
payment to the facility for 10 months and retained it for the recipient’s personal needs
for 2 months. However, the representative payee did not maintain accounting records
or supporting receipts. As a result, the representative payee did not properly account
for the receipt and disbursement of $600 in SSI payments.

SSA’s procedures state that representative payees must use the benefits they receive
for the current needs and best interests of the beneficiary. They are responsible for
keeping records and reporting on the use of benefits. 16 Specifically, a representative
payee’s duties include keeping detailed and accurate records of how benefits are used
to provide an accurate report to SSA when requested. 17

The representative payee has provided care for the recipient since February 2002. The
Medicaid facility maintained financial records for the receipt and disbursement of SSI
payments but did not provide such information to the representative payee. According


15
     SSA, POMS GN 00603.055.A.
16
     SSA, POMS GN 00605.001.B.1.
17
     SSA, POMS GN 00502.113.D.1.
Page 7 – Peter D. Spencer

to the facility’s records, the recipient had a conserved fund balance of $562 as of
June 30, 2006. Although the recipient only received $50 per month, the conserved
fund balance increased by $271 during our audit period. However, the representative
payee was unaware of these conserved fund balances and did not account for the
receipt and use of payments as required.

TELEPHONE CALLS AND CASE MANAGEMENT FEES

Our audit disclosed that 22 of the 56 beneficiaries in the representative payee’s care
                                                                            18
received only Social Security benefits from July 1, 2005 to June 30, 2006. We found
the representative payee had charged 14 of these beneficiaries for telephone calls
and/or case management. This occurred because the representative payee believed
it was acceptable to charge (1) telephone calls as reimbursement for “out-of-pocket”
expenses incurred while serving its beneficiaries and (2) case management fees
because the work was performed by an independent contractor. As a result, the
representative payee was reimbursed for $235 in expenses to which it was not entitled.

SSA’s procedures preclude compensating an individual out of benefits for serving as
representative payee; that is, compensating a payee for his or her time and effort or
administrative expenses. However, SSA’s procedures allow qualified organizations
to collect a fee from beneficiaries for expenses (including overhead) incurred by
the organization in providing services as their representative payee. 19 Before an
organization may collect a fee from a beneficiary's monthly payment, SSA must
             20
authorize it. In addition, the organization—not its employees, volunteers, or other
individuals—must be named the representative payee. 21

The representative payee charged its beneficiaries semiannually for the actual cost
of telephone calls plus $5 or $10 to recoup out-of-pocket expenses. We identified
11 beneficiaries who were charged for telephone calls. In many instances, the
$5 or $10 charge exceeded the actual cost of the telephone calls. Although the
representative payee generally waived its case management fees for beneficiaries
who received only Social Security benefits, we identified one beneficiary who was
charged for case management performed by an independent contractor. We also
identified two beneficiaries who were charged for both telephone calls and case
management. Since the representative payee is an individual, it is not authorized
to receive reimbursement for its time and effort or administrative expenses.



18
  The remaining 34 beneficiaries received other sources of income (for example, pensions and
Department of Veterans Affairs benefits) or transfers from savings or trust accounts which could
have been used to pay for telephone calls and/or case management.
19
     SSA, POMS GN 00602.110.
20
     SSA, POMS GN 00506.001.B.
21
     SSA, POMS GN 00506.100.A.
Page 8 – Peter D. Spencer

CONCLUSION AND RECOMMENDATIONS
Generally, we found the representative payee met its responsibilities to provide for the
care of its beneficiaries. Nevertheless, the representative payee needs to strengthen
its controls and procedures in a number of areas. We recommend that SSA ensure the
representative payee:

1. Submits Representative Payee Applications for the three beneficiaries in the
   previous representative payee’s care.

2. Retains supporting documentation for its expenditures and provides sufficient
   justification for any adjustments to payment amounts.

3. Reports all SNTs and LIFBCs to SSA for its review in evaluating whether these
   items are exempt from SSI resource limits.

4. Uses actual rather than estimated expenses to complete the RPRs for all
   beneficiaries in its care.

5. Returns conserved funds to SSA for any beneficiaries who are no longer in its care.

6. Maintains accounting records for the receipt and disbursement of Social Security
   benefits for all beneficiaries regardless of monthly benefit amount.

7. Discontinues charging telephone calls and case management fees to beneficiaries
   who receive only Social Security benefits.

AGENCY COMMENTS
SSA agreed with all our recommendations. SSA also stated it would ensure the
Redlands field office contacts the representative payee to review each of the issues
cited in the report and provide any training needed to assist the representative payee
in complying with SSA policies. See Appendix D for the full text of SSA’s comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Responsibilities

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
Act      Social Security Act
C.F.R.   Code of Federal Regulations
LIFBC    Life Insurance Funded Burial Contract
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPR      Representative Payee Report
RPS      Representative Payee System
SNT      Special Needs Trust
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                       Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•    Determine the beneficiary’s current needs for day-to-day living and use his or her
     payments to meet those needs.

•    Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•    Maintain accounting records of how the benefits are received and used.

•    Report events to the Social Security Administration (SSA) that may affect the
     individual’s entitlement or benefit payment amount.

•    Report any changes in circumstances that would affect their performance as a
     representative payee.

•    Provide SSA an annual Representative Payee Report to account for benefits spent
     and invested.

•    Return any payments to SSA for which the beneficiary is not entitled.

•    Return conserved funds to SSA when no longer serving as the representative payee
     for the beneficiary.




1
    SSA, POMS GN 00502.113.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period of July 1, 2005 through June 30, 2006. To accomplish
our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures for representative payees.

•   Interviewed SSA employees at the San Francisco Regional Office and three
    field offices to obtain background information about the performance of the
    representative payee.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in the representative payee’s care.

•   Obtained from the representative payee a list of individuals who were in its care and
    had received Social Security benefits.

•   Compared and reconciled the RPS list to the representative payee’s list to identify
    the population of SSA beneficiaries who were in the representative payee’s care
    from July 1, 2005 through June 30, 2006.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Social Security benefits.

•   Reviewed the receipt and expenditure of Social Security benefits for 56 beneficiaries
    from July 1, 2005 through June 30, 2006.

•   Performed the following tests for the 56 beneficiaries:

       Compared and reconciled benefit amounts received according to the
        representative payee’s records to benefit amounts paid according to SSA’s
        records.

       Reviewed the representative payee’s accounting records to determine whether
        benefits were properly spent or conserved on the beneficiary’s behalf.

       Traced a sample of recorded expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

•   Interviewed 10 beneficiaries to determine whether their basic needs were met.



                                            C-1
We determined the computer-processed data to be reliable for our intended use.
We tested the receipt and disbursement of Social Security benefits recorded in
the representative payee’s automated accounting system. We performed tests to
determine the completeness, accuracy, and validity of the data. These tests allowed
us to assess the reliability of the data and achieve our audit objectives.

We performed our field work in Redlands and Richmond, California, between
August 2006 and March 2007. We conducted our audit in accordance with
generally accepted government auditing standards.




                                         C-2
                                                                      Appendix D

Agency Comments

Tuesday, June 19, 2007
Signed Draft Report (A-09-07-17063) Individual Payee in SF Region

Pat:

Thank you for the opportunity to comment on the OIG draft report, “An Individual
Representative Payee for the Social Security Administration in the San Francisco
Region” Number A-09-07-17063.

We have the following comments:

Our review of the draft report found it to be thorough. We agree with the explanations
and references to SSA representative payee provisions that it contains.

We agree that the findings show the representative payee met its responsibilities, but
needs improvement in a number of areas.

We agree with all seven of the recommendations as stated. However, we wish to note
that of the eight recipients who were originally found to have unreported Special Needs
Trusts (SNT) and/or Life Insurance Funded Burial Contracts (LIFBC), four recipients
had previous trust development and documentation which was located by reviewing
systems screens and/or the prior files that were in the field office or requested by the
field office.

We will ensure that the Redlands field office contacts this representative payee to
review each of the issues that were cited in your report and provide any training needed
to assist the representative payee in complying with SSA policies. These activities will
be completed within 90 days of the issuance of your final report.

If your staff have any questions regarding these comments, they should contact
DeAnna Barrios-Terry (510) 970-8213 or Cheryl Jacobson (510) 970-8248 in our
Center for Programs Support.




                           Peter D. Spencer
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Stephen Flaherty, Auditor-In-Charge

   Daniel Hoy, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-07-17063.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
